 OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/AFGHANISTAN’S
PRIMARY EDUCATION PROGRAM


 AUDIT REPORT NO. 5-306-05-005-P
 APRIL 14, 2005




 MANILA, PHILIPPINES
Office of Inspector General


      April 14, 2005

      MEMORANDUM

      TO:                      USAID/Afghanistan Director, Patrick Fine

      FROM:                    RIG/Manila, John M. Phee /s/

      SUBJECT:                 Audit of USAID/Afghanistan’s Primary Education Program
                               (Report No. 5-306-05-005-P)


      This memorandum transmits our final report on the subject audit. In finalizing the report,
      we considered your comments to the draft report and included the comments in their
      entirety as Appendix II.

      This report contains four recommendations to improve USAID/Afghanistan’s Primary
      Education Program. Based on your comments, management decisions have been
      reached on all four recommendations. USAID/Afghanistan should coordinate final
      actions on these recommendations with USAID’s Office of Management Planning and
      Innovation.

      I want to thank you and your staff for the cooperation and courtesy extended to us during
      the audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 2

Audit Objective .................................................................................................................... 2

Audit Findings ................................................................................................................... 3

Were USAID/Afghanistan’s Primary Education
Program activities on schedule to achieve key planned outputs?....................................... 3

     Some Planned Outputs Were Not
     Achieved ....................................................................................................................... 4

     Evaluations of Contractor’s Performance
     Need to be Conducted and Documented...................................................................... 7

Evaluation of Management Comments ........................................................................... 9

Appendix I – Scope and Methodology ......................................................................... 10

Appendix II – Management Comments ........................................................................ 12
SUMMARY OF RESULTS
The Regional Inspector General/Manila conducted this audit to determine whether
USAID/Afghanistan’s Primary Education Program activities were on schedule to achieve
key planned outputs (page 2).

The audit found that USAID/Afghanistan’s Primary Education Program activities
achieved key planned outputs, except for three activities that did not achieve their
planned outputs (page 3).

At December 31, 2004, 3 of 10 Afghanistan Primary Education Program (APEP)
activities audited—despite making significant progress—had not achieved their planned
outputs.     Specifically, textbook distribution was delayed, grade equivalents for
accelerated learning students were also delayed, and the female student enrollment
target was not achieved (pages 4 to 7). These three activities did not achieve their
planned outputs for a number of reasons, including a delay in receiving funding for the
APEP.

USAID/Afghanistan generally monitored progress to address performance challenges.
For example, Mission officials held weekly meetings with contract officials to discuss and
resolve performance problems, and the Mission reviewed quarterly performance reports
(page 3).

Although USAID/Afghanistan generally monitored progress, it did not perform annual
contractor performance evaluations as required by USAID’s Automated Directives
System (page 7). As a result, vital information on the APEP contractor’s performance
was not officially documented (page 7).

This report made four recommendations to improve USAID/Afghanistan’s Primary
Education Program (pages 5 to 8). Based on USAID/Afghanistan’s comments,
management decisions have been reached on all four recommendations (page 9).
USAID/Afghanistan’s comments are included as Appendix II to this report (page 12).




                                                                                        1
BACKGROUND
Afghanistan’s education system has been devastated by two decades of war, and the
country’s uneducated or undereducated youth are legacies of that turmoil. The existing
school system cannot meet the demand for schooling, especially in rural communities.
The lack of textbooks and poorly trained teachers prevent thousands of children from
attending school. Women and girls have suffered the most, particularly in the past
decade when they were denied education.

In January 2003, USAID/Afghanistan awarded Creative Associates International, Inc.
(CAII) a $ 16.5 million contract to implement the Afghanistan Primary Education Program
(APEP). Since the award date, contract modifications have increased estimated costs to
$87.9 million. The contract ends in December 2005.

USAID/Afghanistan designed APEP to respond to the major constraints facing
Afghanistan’s primary education system through a two-phase strategy.

Phase One included reproducing and distributing 10.2 million textbooks nationwide,
training 600 teachers in classrooms, developing and broadcasting radio-based teacher
training educational programs over the radio to reach large numbers of teachers, and
providing accelerated learning classes to 15,706 students in three provinces so that they
can reach their appropriate grade level in reduced time.

Phase Two included expanding APEP activities to 17 provinces, printing and distributing
a second round of 16.2 million textbooks, enhancing the quality of teaching by providing
training to 6,800 teachers, expanding accelerated learning classes to reach 170,000
students, and providing technical assistance to the Ministries of Education and Higher
Education.

In implementing APEP, CAII works with the Afghan Ministry of Education and several
nongovernmental organizations.

AUDIT OBJECTIVE
The Regional Inspector General/Manila included this audit in its fiscal year 2005 audit
plan to answer the following question:

• Were USAID/Afghanistan’s Primary Education Program activities on schedule to
  achieve key planned outputs?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                                       2
AUDIT FINDINGS
Were USAID/Afghanistan’s Primary Education Program activities
on schedule to achieve key planned outputs?

USAID/Afghanistan’s Primary Education Program (APEP) activities achieved key
planned outputs except for three activities that did not achieve their planned outputs.

On March 11, 2004, USAID/Afghanistan issued Modification No. 9 to its contract with
Creative Associates International, Inc. (CAII). The modification established APEP’s
planned outputs for calendar years 2004 and 2005. As Table 1 shows, 7 of 10 APEP
activities achieved their planned outputs for calendar year 2004. For example, nearly
170,000 children in 17 provinces were enrolled in accelerated learning classes, almost
6,800 village teachers were trained, and 16.2 million textbooks were printed. These
activities were successful, in large part, because of USAID/Afghanistan’s monitoring
efforts. For example, the Mission conducted site visits to observe progress and
participated in weekly meetings with the contractor and other implementing partners. In
addition, the Mission reviewed the contractor’s quarterly performance reports to ensure
the accuracy of those reports, and it developed progress reports to track some outputs.

                Table 1: Planned and Actual Outputs for APEP Activities
                              (As of December 31, 2004)

                    Key Outputs                      Planned           Actual        Achieved1
                                                       more than
    Second round of textbooks printed                                 16.2 million     yes2
                                                       15 million
    Second round of textbooks distributed            16.2 million     14.7 million      no3
    Students enrolled in accelerated learning
                                                         170,000         169,846        yes
    classes in 17 provinces
    Students served per province                          10,000            9,991       yes
    Grade equivalents                                    340,000         264,645        no
    Female students enrolled (target was 70%)            119,000          94,494        no
    Trained provincial trainers                              680              680       yes
    Trained village teachers                               6,800            6,778       yes
    Produced and broadcasted radio-based
                                                             350              384       yes
    teacher training educational programs
    Of 350 radio programs, 50 percent in Pashtu
                                                         175/175         192/192        yes
    language and 50 percent in Dari language



1
  As defined in the methodology section of Appendix I, a planned output was considered achieved
  if it was at least 90 percent complete within two weeks of its planned completion date.
2
  We reviewed this output as of June 2004, the planned completion month for this output.
3
  The distribution of over 15 million textbooks should also have been completed in June 2004, but
  distribution did not begin until June 28, 2004. Therefore, this planned output was not achieved.


                                                                                                 3
However, as described in the next section, three activities did not achieve their planned
outputs.

Some Planned Outputs Were Not Achieved
For calendar year 2004, the APEP contained 39 output indicators which the Mission
used to monitor the program’s progress. In our audit we identified 10 of the 39 activity
indicators as being key indicators for measuring the program’s progress. At December
31, 2004, 3 of 10 APEP activities that we reviewed—despite making significant
progress—had not achieved their planned outputs. Specifically, textbook distribution
and grade equivalents for accelerated learning students were both delayed, and the
planned level of female student enrollment was not achieved. The failure to achieve
these Phase Two planned outputs was caused by several factors. For example, Phase
Two of the APEP, which was to start in November 2003, was delayed until supplemental
funding was approved by Congress in March 2004. Other reasons included one
instance of insufficient monitoring, and cultural differences regarding the value of female
education. Because they did not achieve their planned outputs at the time of our audit, it
is more likely that these three activities will not achieve their intended results by
December 31, 2005 (the end of the APEP program), thereby adversely affecting the
overall success of the APEP program.

Textbook Distribution - According to the statement of work in contract Modification No.
9, the printing and distribution of more than 15 million textbooks should have been
completed in June 2004. However, 1.5 million textbooks were still stored in warehouses
at December 31, 2004. Several factors impeded textbook distribution, including a 4-
month delay in getting funding to begin Phase Two of the APEP. As a result, there was
a possibility that students’ ability to learn might have been adversely affected.

In November 2003, the Afghan Ministry of Education provided CAII with information on
the number of textbooks that were needed by grade level, subject matter, and language
requirements. Based on this information, 16.2 million textbooks were printed. As noted
above, textbook distribution was to have been completed in June 2004. However, at
December 31, 2004, one million textbooks remained in a World Food Program (WFP)
warehouse in Jalalabad City in Nangarhar province (scheduled to be distributed to over
700 schools), and about 500,000 textbooks remained in an Afghan Ministry of Education
warehouse in Kabul.

Textbook distribution was delayed by a number of factors. One factor was that USAID
did not receive until March 2004 the supplemental funding needed to begin Phase Two
of the APEP. Additionally, distribution was delayed because: (1) WFP put off delivery of
textbooks to some areas of the country because of security concerns; and (2) of an
instance of a lack of monitoring of textbook distribution by the contractor—CAII
adequately monitored the first distribution of textbooks (10.2 million), but it did not
adequately monitor the second distribution (16.2 million).




                                                                                         4
                                                          Photograph of the Afghan Ministry
                                                          of Education warehouse in Kabul,
                                                          Afghanistan, where about 500,000
                                                          USAID-purchased textbooks were
                                                          stored.    (The photograph was
                                                          taken in January 2005.)



As a result of these factors, 1.5 million textbooks had not been distributed to schools.
When this occurs, the possibility exists that students’ ability to learn may be adversely
affected. Therefore, we are making the following recommendation:

   Recommendation No. 1: We recommend that USAID/Afghanistan obtain from
   Creative Associates International, Inc. a distribution plan identifying the specific
   dates and locations for delivering the remaining textbooks in storage to ensure
   that the correct quantity, grade level, and language of textbooks are distributed to
   schools.

Grade Equivalents - The APEP’s accelerated learning classes were designed to quickly
raise the educational levels of older students who had not attended school, and then
move the students into Afghanistan’s public school system at the appropriate grade level
for their ages. Through the accelerated learning classes, the Afghan Ministry of
Education expected that students would be able to complete one normal year of
schooling in six months (i.e., advance two grade levels in one year). According to the
statement of work in contract Modification No. 9, the planned outputs were 340,000
grade equivalents (170,000 students multiplied by two grade levels) by December 2004.
However, the contract did not state how grade equivalents were to be computed. Grade
equivalents can be computed in two ways: totaling the number of grade levels
completed, or totaling the number of grade levels completed plus the number of students
still attending accelerated learning classes.

The method of computing grade equivalents affects whether grade equivalents were
achieved. We believe that grade equivalents should be based on the cumulative
number of grade levels completed because APEP activities were aimed at quickly
bringing up the education levels of overage students to an appropriate grade level.
Therefore, at December 31, 2004, the grade equivalents for students were delayed. By
that date, the actual output for grade equivalents was 264,645 (78 percent of the
planned outputs). This shortfall was mainly due to accelerated learning classes not
starting on time because USAID did not receive until March 2004 the supplemental
funding needed to expand the APEP into Phase Two, which increased planned
enrollment to 170,000 students. As a result of classes not starting on schedule, students


                                                                                          5
did not complete two grade levels in calendar year 2004, and this may affect the number
of grade levels students can complete by the end of APEP activities in December 2005.

According to CAII, it computed grade equivalents by including 166,321 students that
were still attending accelerated learning classes. Based on this determination, the
grade equivalent outputs were achieved. CAII officials believed that the cumulative
grade equivalents by December 31, 2004 should have included grade equivalents for
students enrolled in accelerated classes at that date.       However, we believe grade
equivalents should be computed once students complete an entire class curriculum.
USAID/Afghanistan needs to define how to compute grade equivalents to accurately
assess the progress of this activity and to decide if and when a change in the method of
implementing the activity is needed to achieve the planned outputs. Therefore, we are
making the following recommendation:

   Recommendation No. 2: We recommend that USAID/Afghanistan clearly define
   the method by which to compute grade equivalents that are to be achieved in the
   Afghanistan Primary Education Program. If change is needed to meet the
   planned outputs, the Mission should obtain a detailed action plan from Creative
   Associates International, Inc. showing how the grade equivalent shortfalls will be
   achieved.

Female Students Enrolled - According to Modification No. 9, 119,000 (70 percent) of
170,000 students enrolled in accelerated learning classes were to be female. At
December 31, 2004, however, female enrollment was only 94,494 or 56 percent of
170,000 students.




                                                               Photograph of a third grade
                                                               accelerated learning class in
                                                               Kabul, Afghanistan. (The
                                                               photograph was taken in
                                                               January 2005.)


APEP fell short of its female enrollment target for several reasons. One contributory
cause was that the supplemental funding needed to expand accelerated learning
opportunities from 15,706 students in Phase One to 170,000 students in Phase Two was
not approved by the U.S. Congress until March 2004—reducing by four months the time
available for recruiting students, particularly females. A more important factor was the



                                                                                          6
conservative attitudes of parents and communities regarding the value of providing
education to females. Given those conservative attitudes and the fact that female
enrollment in Afghanistan’s public school system was only 35 percent, CAII and Mission
officials stated that the 70 percent goal was not attainable or even realistic.

Having realistic performance targets is important because such targets allow USAID
managers to accurately assess the progress of their activities and to decide when a
change in approach might be needed. Consequently, we are making the following
recommendation:

   Recommendation No. 3: We recommend that USAID/Afghanistan reassess the
   female enrollment target for its Afghanistan Primary Education Program to
   ensure that performance can be managed toward an obtainable target.

During our review of the Mission’s management controls related to the audit objective,
we identified the following area for improvement in the Mission’s controls related to
annual contractor performance evaluations.

Evaluations of Contractor’s Performance
Need to be Conducted and Documented

 Summary: Contrary to USAID policy, USAID/Afghanistan did not conduct annual
 contractor performance evaluations of or prepare annual contractor performance
 reports for Creative Associates International, Inc. This requirement, to evaluate and
 document the performance of the contractor, was not conducted because it was not a
 priority of the Mission. As a result, vital information on the contractor’s performance
 had not been officially documented. This practice could result in the future selection
 of contractors with poor past performance.

According to Automated Directives System (ADS) 302.5.9,

   It is USAID policy that contracts in excess of $100,000, including individual task
   orders under indefinite quantity contracts, must be evaluated at least annually
   (for contracts exceeding one year in duration) and upon completion of activities,
   as required by FAR 42.1502. More frequent evaluations may be conducted if the
   Contracting Officer and Cognizant Technical Officer determine them to be in the
   best interests of the activity.

Additional guidance is provided in ADS 202.3.6.1, which states that Cognizant Technical
Officer (CTO) responsibilities for monitoring contractor performance may include, in part,
“preparing annual Contractor Performance Reports for contracts that have a value of
more than $100,000, and submitting them to the Contracting Officer.”

CAII’s APEP contract has been in effect since January 2003. Because the contract
exceeded the ADS dollar threshold, USAID/Afghanistan should have conducted annual
performance evaluations of the contract.          However, as of February 5, 2005,
USAID/Afghanistan had not conducted any annual evaluations of the contract. A
contracting official stated that the Mission had not conducted annual performance
evaluations for any of its contractors because; given the Mission’s staffing shortages, the


                                                                                           7
evaluations were not a priority. The CTO responsible for monitoring CAII also stated
that he was not aware of the requirements for annual evaluations and performance
reports until he attended his first CTO training course in January 2005. The Mission has
tried to increase staffing by improving working and living conditions and offering financial
incentives. However, issues such as the tenuous security situation in Afghanistan
continue to affect its recruitment efforts.

Performance evaluations are an important management tool. They document contractor
performance in areas such as quality, cost control, and timeliness. USAID should
conduct and document these evaluations to identify any problems that need correcting
and to support future award decisions. Moreover, such evaluations could be useful to
other U.S. government agencies considering contracts with USAID contractors. Not
conducting annual contractor performance evaluations could result in the inefficient use
of U.S. government resources. To ensure that CAII’s performance is documented in
accordance with USAID policy, we are making the following recommendation:

   Recommendation No. 4: We recommend that USAID/Afghanistan conduct a
   current performance evaluation of Creative Associates International, Inc.’s
   implementation of the Afghanistan Primary Education Program, and prepare a
   contractor performance report documenting the results of the evaluation.




                                                                                          8
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Afghanistan’s written comments on the draft report are included in their entirety
as Appendix II to this report.

USAID/Afghanistan agreed with Recommendation Nos. 1, 2, 3 and 4, and it detailed the
actions it has taken or plans to take to implement the recommendations, including target
completion dates where applicable. Based on our review of the detailed actions, we
consider that management decisions have been reached on all four recommendations.
USAID/Afghanistan should coordinate final actions on these recommendations with
USAID’s Office of Management Planning and Innovation.




                                                                                      9
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Manila conducted this audit in accordance with generally
accepted government auditing standards. This audit was designed to determine whether
USAID/Afghanistan’s Primary Education Program (APEP) activities were on schedule to
achieve key planned outputs.

The audit covered APEP’s planned outputs for calendar year 2004, as detailed in
Modification No. 9 to the $87.9 million contract between USAID/Afghanistan and Creative
Associates International, Inc. (CAII). The audit fieldwork was conducted from January 13 to
February 5, 2005, at the offices of USAID/Afghanistan and CAII in Kabul, Afghanistan. We
visited fifteen accelerated learning classes located in the Kabul, Parwan, and Kapisa
provinces of Afghanistan. We also visited an Afghan Ministry of Education warehouse in
Kabul.

In planning and performing the audit, we reviewed and assessed the Mission’s internal
controls related to ensuring that APEP activities were on schedule to achieve key planned
outputs. The APEP contained 39 planned outputs for calendar year 2004 in Modification
No. 9 to its contract with CAII. We identified the following 10 outputs as key outputs for
judging the performance of the program: textbook printing, textbook distribution, student
enrollment in accelerated learning classes, students served per province, grade
equivalents, female student enrollment, trained provincial trainers, trained village teachers,
radio-based teacher training educational programs, number of Pashtu and Dari language
programs produced.

During the audit, we assessed controls related to whether the Mission: (1) conducted site
inspection visits to evaluate progress; (2) established and maintained a separate work file
for documents and correspondence; (3) documented significant actions, meetings, or
conversations with CAII; (4) reviewed and approved performance reports submitted by
CAII; (5) developed progress reports to keep track of inputs and outputs; and (6) conducted
annual performance evaluations of CAII. We also reviewed the Mission’s self-assessment
prepared in compliance with the Federal Managers Financial Integrity Act for fiscal year
2004 for those management controls related to the audit objective. There were no prior
audit findings affecting this audit.


Methodology
To answer the audit objective, we interviewed officials of USAID/Afghanistan and CAII, as
well as APEP teachers involved in accelerated learning activities. In addition, we reviewed
and analyzed the relevant documentation and processes related to APEP activities for
calendar year 2004. The documentation and processes reviewed included those related to
the program’s (a) planned outputs, and (b) actual outputs reported by CAII to the Mission.
We also visited 15 judgmentally selected accelerated learning classes and an Afghan
Ministry of Education warehouse.




                                                                                           10
                                                                             APPENDIX I

We judged that each planned output was achieved if it was at least 90 percent complete
within two weeks of its planned completion date. We answered the audit objective as
unqualified, qualified, or adverse by applying the following parameters to all the planned
outputs:

• The opinion would be unqualified if 90 percent of all planned outputs were achieved.

• The opinion would be qualified if less than 90 but not less than 70 percent of all planned
  outputs were achieved.

• The opinion would be adverse if less than 70 percent of all planned outputs were
  achieved.




                                                                                         11
                                                                 APPENDIX II




MANAGEMENT COMMENTS

            USAID AFGHANISTAN
            FROM THE AMERICAN PEOPLE




MEMORANDUM

To:         Mr. John M. Phee, RIG/A/Manila

From:       Barry Primm, A/Mission Director /s/

Subject:    Audit of USAID/Afghanistan’s Primary Education Program
            (Report No. 5-306-05-00x-P)

Ref.:       J. Phee memo dated March 10, 2005

Presented below are management comments and plans for corrective actions
on the four recommendations in the subject audit report.

Recommendation No. 1: We recommend that USAID/Afghanistan
obtain from Creative Associates International, Inc. a distribution plan
identifying the specific dates and locations for delivering the
remaining textbooks in storage to ensure that the correct quantity,
grade level, and language of textbooks are distributed to schools

Comment: The USAID/Afghanistan Education Office agrees and as
recommended, has obtained a distribution plan from Creative Associates
International, Inc (CAII). Attached is a letter from CAII’s sub-contractor
AMEG providing the outline for the distribution plan. They in turn are
awaiting the MOE’s final approval of the plan that the MOE has agreed to
carry out, including specific dates and locations for delivering the remaining
textbooks. CAII has advised USAID that the final distribution plan will be
approved by the MOE and forwarded to USAID by the end of next week, April
14, 2005. At that time, USAID/Afghanistan will forward a copy of the final
plan to RIG/Manila.




                                                                           12
                                                                        APPENDIX II

Recommendation No. 2:       We recommend that USAID/Afghanistan
clearly define the method by which to compute grade equivalents that
are to be achieved in the Afghanistan Primary Education Program. If
change is needed to meet the planned outputs, the Mission should
obtain a detailed action plan from Creative Associates International,
Inc. showing how the grade equivalent shortfalls will be achieved.

Comment: USAID/Afghanistan agrees with the recommendation and will
immediately request the Mission’s Office of Acquisition and Assistance to
change the language for the planned outputs so that computing grade
equivalents is clearly understood as grades “in process.”

Recommendation No. 3: We recommend that USAID/Afghanistan
reassess the female enrollment target for its Afghanistan Primary
Education Program to ensure that performance can be managed
toward an obtainable target.


Comment: USAID/Afghanistan agrees with the recommendation and
proposes a revised target of 52.5% girls’ participation in the APEP
accelerated learning activities. This figure represents one and a half times
the current national girls' participation rate (35%) and would seem a
reasonable and achievable goal.

Recommendation No. 4:       We recommend that USAID/Afghanistan
conduct a current performance evaluation of Creative Associates
International, Inc.’s implementation of the Afghanistan Primary
Education Program, and prepare a contractor performance report
documenting the results of the evaluation.

Comment: USAID/Afghanistan agrees with the recommendation and since the
audit has conducted a training program for all CTOs on contractor performance
reporting (CPR). The APEP/CTO completed and submitted the CPR for APEP on
March 27, 2005.

Closure of the recommendations will be requested upon RIG’s acceptance of
the above management comments.          Thank you for the constructive
recommendations.


Attachment: As stated


Cc: Andrew Holland, USAID/Afghanistan Supervisory Contracting Officer
    Amanda Levenson, USAID/Afghanistan Controller
    James Sarn, Director, SSR
    James McCloud, CTO




                                                                                 13
U.S. Agency for International Development
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
          Fax: (202) 216-3047
           www.usaid.gov/oig

                                            14
